Unihb jifates Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted November 13,2020
Decided November 24, 2020
Before
DIANE P. WOOD, Circuit Judge
DAVID F. HAMILTON, Circuit Judge

No. 20-1839
JOSEPH REINWAND,
Petitioner-Appellant,
v.
SUE NOVAK,
Respondent-Appellee.

Appeal from the United States District
Court for the Western District of Wisconsin.
No. 19-cv-767-bbc
Barbara B. Crabb,

Judge.

ORDER
Joseph Reinwand has filed a notice of appeal from the denial of his petition
under 28 U.S.C. § 2254 and an application for a certificate of appealability. We have
reviewed the final order of the district court and the record on appeal. We find no
substantial showing of the denial of a constitutional right. See 28 U.S.C. § 2253(c)(2).
Accordingly, the request for a certificate of appealability is DENIED.

w

iPease: 3:19-cv-00810-bbc Document#: 20 Filed: 04/21/20 Page 1 of 1
w
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WISCONSIN
JOSEPH REINWAND
Petitioner,
Case No. 19-cv-810-bbc
v.
SUE NOVAK,
Respondent.

JUDGMENT IN A CIVIL CASE

IT IS ORDERED AND ADJUDGED that judgment is entered entered in favor
of respondent Sue Novak denying Joseph Reinwand’s petitions for writ of habeas
corpus under 28 U.S.C. § 2254 dismissing this case.

M.

4/21/2020
Date

Peter Oppeneer, Clerk of Court

ftfPfen/UVA

C

Hutfeh jitahs Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
January 7, 2021
Before
DIANE P. WOOD, Circuit Judge
DAVID F. HAMILTON, Circuit Judge

No. 20-1839
JOSEPH REINWAND,
Petitioner-Appellant,

■ t

Appeal from the United States District
Court for the Western District of
Wisconsin.

v.
No. 3:19-cv-00767-BBC
SUSAN NOVAK, Warden,
Responden t-Appellee.

Barbara B. Crabb,

Judge.
ORDER
On consideration of petitioner Joseph Reinwand's petition for rehearing, filed on
December 15,2020, all judges on the original panel have voted to deny the petition.
Accordingly, the petition for rehearing filed by petitioner Joseph Reinwand is
DENIED.

P\

